SUPREME COURT

FILED
MAR 3 0 2021
Jcr33 Navarrets Clerk
$266527
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re JACK VO on Habeas Corpus.
The petition for writ of habeas corpus is denied. (See In re Robbins (1998) 18
Cai.4th 770,780 [courts will not entertain habeas corpus claims that are untimely]; In re
Clark {1993) 5 Cal.4th 750, 767-769 [courts will not entertain habeas corpus claims that
are successive].)

CANTIL-SAKAUYE

ChiefJustice
}

SUPREME COURT

filed
MAR 3 0 2021

Jorgs Navarrete Clerk
S266527

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re JACK VO on Habeas Corpus.
The petition for writ of habeas corpus is denied. (See In re Robbins (1998) 18
Cal.4th 770,780 [courts will not entertain habeas corpus claims that are untimely]; In re
Clark (1993) 5 Cal.4th 750, 767-769 [courts will not entertain habeas corpus claims that
are successive].)

CANTIL-SAKAUYE

ChiefJustice

MINUTE ORDER
SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
JATE PRINTED: 09/02/20
IASE NO. A533713
rHE PEOPLE OF THE STATE OF CALIFORNIA
VS.
)EFENDANT 01: JACK VO

IOUNT 01: 187(A) PC FEL

)N 09/02/20 AT

830 AM

IN EAST DISTRICT DEPT EAA

>SE CALLED FOR HABEAS CORPUS PETITION
’ARTIES: 1UAN C. DOMINGUEZ (1UDGE) VALERIE SALAS
NONE
(REP) NONE (DDA)

(CLERK)

’URSUANT TO DEFENDANT'S WRITTEN REQUEST, AND NOT REPRESENTED BY COUNSEL
THE COURT HAS READ AND CONSIDERED THE PETITION FOR WRIT OF
HABEAS CORPUS FILED ON 8-25-2020.
THE DEFENDANT'S PETITION IS DENIED FOR THE FOLLOWING REASONS;
fHE FACTs3rESENTED DO NOT JUSTIFY THE COURT GRANTING
iEtfflDAffTS PETITION.
ILERK TO GIVE NOTICE.
I, SHERRI R. CARTER, EXECUTIVE OFFICER/CLERK OF THE SUPERIOR
IOURT OF CALIFORNIA, COUNTY OF LOS ANGELES, DO HEREBY CERTIFY
"HAT I AM NOT A PARTY TO THE CAUSE HEREIN, AND THAT ON THIS
>ATE THE FOLLOWING DOCUMENT ENTITLED MINUTE ORDER IS SERVED
JPON THE PARTY OR COUNSEL NAMED BELOW BY DEPOSITING IN THE
JNITED STATES MAIL AT THE COURTHOUSE IN THE CITY OF POMONA,
IOUNTY OF LOS ANGELES, STATE OF CALIFORNIA, ONE COPY OF THE
)RIGINAL DOCUMENT IN A SEPARATE SEALED ENVELOPE TO EACH
\DDRESS SHOWN BELOW WITH THE POSTAGE THEREON FULLY PREPAID, IN
vCCORDANCE WITH STANDARD COURT PRACTICES.
IACK VO, CDCR #D-16885
:sp-lac

PAGE NO.

1

HABEAS CORPUS PETITION
HEARING DATE: 09/02/20

Additional material
from this filing is
available in the
Clerk's Office.

